                                                EMPLOYMENT AND TRAINING ADMINISTRATION





Office of Inspector General—Office of Audit 





                                                HOTLINE COMPLAINT AGAINST THE SIERRA
                                                NEVADA JOB CORPS CENTER




                                                                         Date Issued:   September 30, 2010
                                                                      Report Number:      26-10-007-01-370
U.S. Department of Labor                                  September 2010
Office of Inspector General
Office of Audit                                           Hotline Complaint Against the Sierra Nevada
                                                          Job Corps Center

BRIEFLY…                                                  WHAT OIG FOUND
Highlights of Report Number: 26-10-007-01-370, to the     Two of eight allegations had some merit, and we could
Assistant Secretary, Employment and Training              not conclude on one allegation. We found no evidence
Administration.                                           that Sierra Nevada engaged in the improper practices
                                                          noted in five other allegations.
WHY READ THE REPORT
The Office of Inspector General (OIG) conducted a         For the two allegations having some merit, the center
performance audit in response to a hotline complaint      took appropriate disciplinary action. The staff involved
concerning improprieties at the Sierra Nevada Job         with the adult student voluntarily resigned, and the
Corps Center in Reno, Nevada. Sierra Nevada is 1 of       students whose case logs were changed to eliminate
24 Job Corps centers operated by the contractor           specific references to alcohol use nonetheless received
Management and Training Corporation (MTC).                appropriate disciplinary action for the use of alcohol.
                                                          Our testing of Sierra Nevada’s overall management of
The complaint described eight incidents for which the     student misconduct showed that the center conducted
complainant alleged Sierra Nevada did not take            investigations, held Fact Finding Boards to determine
appropriate action for student and staff misconduct, or   innocence or guilt, and took appropriate disciplinary
paid staff for hours not worked.                          action. However, the center did not always report
                                                          student misconduct and other significant incidents to
WHY OIG CONDUCTED THE AUDIT                               Job Corps as required.
We conducted the audit to determine the merit of the
eight specific complaint allegations. Specifically, we    We could not conclude on the merit of the allegation
sought to answer the following questions:                 that a security supervisor compensated staff for hours
                                                          not worked because daily reports that document
Is there evidence that center personnel did not take      security staff activities were missing or incomplete.
appropriate actions for student or staff misconduct?      Additionally, during our review of payroll controls, we
                                                          could not verify the hours reported for exempt
Is there evidence that hours reported by center           employees represented actual hours worked because
personnel did not represent actual hours worked?          the center did not require documentation and
                                                          supervisory approval of the hours worked.
Our audit work was conducted at Sierra Nevada Job
Corps Center, Reno, Nevada.                               For five allegations relating to Sierra Nevada not taking
                                                          appropriate action for student or staff misconduct, we
READ THE FULL REPORT                                      found no evidence that Sierra Nevada engaged in any
To view the report, including the scope, methodology,     improper practices.
and full agency response, go to:
                                                          WHAT OIG RECOMMENDED
http://www.oig.dol.gov/public/reports/oa/2010/            The OIG recommended that ETA direct Job Corps to
26-10-007-01-370.pdf                                      require Sierra Nevada to establish procedures that
                                                          verify the center’s compliance with Job Corps
                                                          requirements for reporting significant incidents; verify
                                                          the center’s compliance with its own requirements for
                                                          Activity Reports and Dispatch Logs; and provide
                                                          adequate assurance and maintain documentation that
                                                          reported hours worked for exempt employees represent
                                                          actual hours worked. The Assistant Secretary for ETA
                                                          concurred with two recommendations and concurred in
                                                          part with one, and will take corrective actions. MTC
                                                          stated it took corrective action for two of our
                                                          recommendations. For the third, MTC believes the
                                                          center’s existing supervisory oversight over hours
                                                          worked by exempt employees is sufficient.
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





          Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                        Report No. 26-10-007-01-370 

                                                      U. S. Department of Labor – Office of Inspector General 




Table of Contents 


Assistant Inspector General’s Report ......................................................................... 1
	
                                                                                                                

                                                                                                                
	

Results in Brief .............................................................................................................. 2
	
                                                                                                                                 

                                                                                                                                 
	

Objective 1 — Is there evidence the center did not take appropriate actions 

              for student or staff misconduct? ........................................................ 5
	
                                                                                                         

                                                                                                         
	

       Finding 1 — The center took appropriate disciplinary actions in response to 

                    two confirmed incidents of student or staff misconduct, but did 

                    not always report signficant incidents to Job Corps.. ......................... 5
	
                                                                                                     
	
                                                                                                     


Objective 2 — Is there evidence that hours reported by center personnel did 

              not represent actual hours worked? .................................................. 9
	
                                                                                                     
	
                                                                                                     


       Finding 2 — We could not conclude on the merit of the complaint allegation 

                   that a security supervisor compensated staff for hours not 

                   worked nor the accuracy of reported work hours for employees 

                   paid a salary because supporting documentation was missing, 

                   incomplete, or not required ................................................................ 9
	
                                                                                                                 
	
                                                                                                                 


Recommendations ...................................................................................................... 10
	
                                                                                                                         
	
                                                                                                                         


Appendices

       Appendix A Background........................................................................................ 15
	
                                                                                                                       
	
                                                                                                                       

       Appendix B Objectives, Scope, Methodology, and Criteria ................................... 17
	                
	
                                                                                                                       

       Appendix C Acronyms and Abbreviations ............................................................. 21
	        
	
                                                                                                                       

       Appendix D ETA’s Response to Draft Report ....................................................... 25
	          
	
                                                                                                                       

       Appendix E MTC’s Response to Draft Report ....................................................... 27 

       Appendix F Acknowledgements ............................................................................ 31
	   
	
                                                                                                                       





                                                        Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                                                                      Report No. 26-10-007-01-370 

         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





          Hotline Complaint Audit of Sierra Nevada Job Corps Center
                                        Report No. 26-10-007-01-370
                                     U. S. Department of Labor – Office of Inspector General 




U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210




September 30, 2010

                        Assistant Inspector General’s Report


Jane Oates
Assistant Secretary
 Employment and Training Administration
United States Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210

The Office of Inspector General (OIG) conducted a performance audit in response to a
hotline complaint concerning improprieties at the Sierra Nevada Job Corps Center
(Sierra Nevada) in Reno, Nevada. The Office of Job Corps (Job Corps) is an office
within the Employment and Training Administration (ETA). Sierra Nevada is 1 of 24 Job
Corps centers operated by the contractor Management and Training Corporation
(MTC). The complaint alleged that Sierra Nevada did not take appropriate action for
student and staff misconduct, and paid staff for hours not worked .

We conducted the audit to answer the following two questions:

   1) Is there evidence that center personnel did not take appropriate actions for
      student or staff misconduct?

   2) Is there evidence that hours reported by center personnel did not represent
      actual hours worked?

To accomplish our objective, we interviewed the complainant, Sierra Nevada
management and staff, and Job Corps officials; reviewed the Job Corps Policy and
Requirements Handbook (PRH) and MTC/Sierra Nevada operating procedures
governing student misconduct and payroll; assessed Sierra Nevada’s controls for
ensuring compliance; and reviewed student disciplinary and center security files. Our
audit covered Sierra Nevada activities that occurred during December 1, 2009, through
May 31, 2010.

To determine if appropriate action was taken for student or staff misconduct, we used
judgmental (non-statistical) sampling to review 99 of 859 incident entries from the
center’s security case logs. Specifically, we judgmentally selected 87 student
misconduct incidents identified by the complainant or based on incident classification,
and judgmentally selected 12 events involving alcohol. We also selected a statistical
sample of 50 student misconduct incidents for review from a population of 115 Level I
                                       Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                             1                       Report No. 26-10-007-01-370
                                     U. S. Department of Labor – Office of Inspector General 



and II student misconduct incidents reported for the center in Job Corps’ Center
Information System (CIS). We also reviewed all 115 CIS Level I and II incidents to
determine whether the significant incidents were reported as required.

To test whether hours reported by center personnel did not represent actual hours
worked, we tested the timekeeping process for two groups of hourly employees;
selected a judgmental sample of 10 of 17 security staff identified by the complainant
either by name or by shift worked, and a judgmental sample of 30 of 53 residential
advisors paid on an hourly basis to review actual hours worked against hours scheduled
for and paid to work. We also judgmentally selected for review the available
documentation related to the 10 security staff for 23 pay periods where daily activity
reports were required by center security management for security staff, which totaled
186 individual work schedules, and 182 required security dispatch log entries for 4 of 23
pay periods.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Additional background information is contained in Appendix A and our
audit scope, methodology, and criteria are detailed in Appendix B of this report.

RESULTS IN BRIEF

We conducted work to determine the merit of eight specific complaint allegations. Two
allegations had some merit, and we could not conclude on one allegation because
supporting documentation was missing or incomplete. We found no evidence that Sierra
Nevada engaged in the improper practices noted in five allegations. The following table
summarizes the eight allegations and our related audit results:




                                      Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                            2                       Report No. 26-10-007-01-370 

                                                  U. S. Department of Labor – Office of Inspector General 





    Table 1: Eight Allegations Against Sierra Nevada

                                 Allegation                                               C
                                                                                          	 onclusion
    1. An inappropriate relationship existed between a            Had some merit
       student and a center staff.
    2. Security case logs were changed to eliminate               Had some merit
       references to alcohol use.
    3. Security staff was improperly discouraged from 	          Not substantiated
       investigating sexual crimes on center and reporting
       them to the police.
    4. Security dispatch logs were altered and information 	     Not substantiated
       relating to criminal activity was omitted.
    5. The center did not take appropriate disciplinary 	        Not substantiated
       action or properly report incidents for student drug
       use, possession of weapons, intoxication, and
       hazing.
    6. The center downplayed and did not report student 	        Not substantiated
       riots.
    7. Incident reports detailing student misconduct were 	      Not substantiated 

       improperly deleted from security staff computers. 

    8. A security supervisor altered activity reports and 	    Could not conclude due
       timecards to compensate security staff for hours       to missing or incomplete
       not worked.                                           supporting documentation

For the two allegations having some merit, the center took appropriate disciplinary
action. The staff involved with the student voluntarily resigned, and the students whose
case logs were changed to eliminate references to alcohol use nonetheless received
appropriate disciplinary action for the use of alcohol. Our testing of Sierra Nevada’s
overall management of student misconduct showed that the center conducted
investigations, held Fact Finding Boards to determine innocence or guilt, and took
appropriate disciplinary action. However, the center did not always report student
misconduct and other significant incidents to Job Corps as required. Twenty-eight (46
percent) of the 61 significant incidents 1 that occurred at the center during December
2009 through May 2010 were not reported. Not reporting significant incidents may
impact Job Corps’ assessments of center operations and its ability to respond to
possible negative media attention. Although the center had adequate procedures for
reporting significant incidents as required, center management did not provide sufficient
oversight to ensure compliance.

1
 We identified 59 of the 61 significant incidents by comparing all 115 Level I and II student misconduct incidents and
87 of 859 incident entries from the center’s security case logs against Job Corps’ significant incident reporting system
data. Two staff significant incidents were identified; one by the complainant and we identified one staff incident while
conducting interviews.

                                                    Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                                          3	                      Report No. 26-10-007-01-370 

                                              U. S. Department of Labor – Office of Inspector General 




We could not conclude on the merit of the allegation that a security supervisor
compensated staff for hours not worked because daily reports that document security
staff activities were missing or incomplete. Specifically, daily activity reports for 136 (73
percent) of 186 individual work schedules over 23 pay periods tested from December
2009 through May 2010 were missing, and 139 (76 percent) of 182 entries in the
security dispatch logs reviewed over four pay periods did not document when security
staff departed from duty as required. Although neither Job Corps nor Sierra Nevada had
written policy requiring daily activity reports and dispatch logs, the center security
manager required the documentation to ensure security staff was actively engaged with
center personnel while on duty and to ensure a visible security staff presence in the
dormitories. Security staff was required to make hourly entries in their activity reports
and the security office dispatcher was required to record staff start and departure times
in the dispatch logs. The center could not provide that assurance due to the missing or
incomplete documentation. Additionally, during our review of payroll controls we could
not verify the hours reported for exempt employees 2 represented actual hours worked
because the center did not require documentation of the hours worked and supervisor
approval. These control deficiencies occurred because center management had not
established procedures defining adequate documentation requirements and oversight to
ensure reported work hours represented the actual hours worked.

In summary, we recommend that the Assistant Secretary for Employment and Training
direct Job Corps to require Sierra Nevada establish procedures that (1) verify the
center’s compliance with Job Corps requirements for reporting significant incidents, (2)
verify the center’s compliance with its own requirements for Activity Reports and for the
Dispatch Log, and (3) provide adequate assurance and maintain documentation that
reported hours worked for exempt employees represent actual hours worked.

ETA and MTC RESPONSES

ETA’s and MTC’s responses to the draft report are included in their entirety as Appendix
D and Appendix E, respectively.

In its response, MTC stated it has taken action to address two of our recommendations,
but for the third recommendation, MTC believes the center’s existing controls over
hours worked by exempt employees are sufficient. MTC’s procedures require neither
documentation of hours worked nor supervisory approval of hours reported, and we
continue to assert MTC’s existing controls for hours worked by exempt employees are
not adequate. Accordingly, MTC’s response has not changed our conclusions.




2
 The Fair Labor Standards Act (FLSA) establishes standards for minimum wages, overtime pay, recordkeeping, and
child labor. The FLSA exempts some employees from its overtime pay and minimum wage provisions.

                                                Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                                      4                       Report No. 26-10-007-01-370 

                                                  U. S. Department of Labor – Office of Inspector General 



RESULTS AND FINDINGS

Objective 1 — Is there evidence the center did not take appropriate actions for
             student or staff misconduct?

Finding 1 — The center took appropriate disciplinary actions in response to two
            confirmed incidents of student or staff misconduct, but did not
            always report significant incidents to Job Corps.

We found that two complaint allegations relating to student or staff misconduct had
some merit. Student and center records indicated that an inappropriate relationship
between an adult student and a center staff did occur; and security case logs were
changed to eliminate references to student intoxication or alcohol consumption.
However, the center took appropriate disciplinary actions in both cases. The staff
involved with the adult student resigned and the students whose case logs were
changed received appropriate disciplinary action for alcohol consumption. We found no
evidence that the remaining five allegations relating to student misconduct had merit.

Additionally, based on our testing of 143 student misconduct incidents 3 , Sierra Nevada
properly investigated student misconduct, held required Fact Finding Boards to
determine innocence or guilt, and took appropriate disciplinary action. However, the
center did not report student misconduct and other significant incidents to Job Corps as
required. Twenty-eight (46 percent) of the 61 significant incidents 4 that occurred at the
center during December 2009 through May 2010 were not reported. Not reporting
significant incidents may impact Job Corps’ assessments of center operations and its
ability to respond to possible negative media attention. Although the center had
adequate procedures for reporting significant incidents as required, center management
did not provide sufficient oversight to ensure compliance.

Two Allegations Relating to Student or Staff Misconduct had Some Merit

The allegations that there was an inappropriate relationship between a student and
center staff, and that security case logs were changed to eliminate references to student
intoxication or alcohol consumption had some merit. We found no evidence to
substantiate the five additional allegations relating to student misconduct


Allegation 1. Inappropriate Relationship Between a Student and a Center Staff.

3
 The 143 incidents tested was comprised of 50 of 115 Level I and II student misconduct incidents reported for the
center in Job Corps’ CIS, 87 of 859 student misconduct incidents recorded in the center’s security case logs, and 6 of
12 negative behavior incidents. The remaining 6 of 12 negative behavior incidents were included within the 50 Level
I and II or the 87 security case logs samples tested.
4
 We identified 59 of the 61 significant incidents by comparing all 115 Level I and II student misconduct incidents and
87 of 859 incident entries from the center’s security case logs against Job Corps’ significant incident reporting system
data. Two staff significant incidents were identified; one by the complainant and we identified one staff incident while
conducting interviews.

                                                    Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                                          5                       Report No. 26-10-007-01-370 

                                                 U. S. Department of Labor – Office of Inspector General 




The allegation that a student had an inappropriate relationship with a center staff had
some merit. The complainant provided us with the names of the adult student and the
center staff. Based on interviews and review of student and center records, we
determined the center investigated the student and staff’s relationship in February 2010
but did not take disciplinary action because the staff denied the relationship and there
was a lack of proof. In April 2010, a center security staff observed the student exiting
and returning to the residence of the staff and filed an incident report. Center
management confronted the staff with center security’s observations and the staff
immediately resigned.

Allegation 2. Security Case Logs Changed to Eliminate References to Student Alcohol
Use.

The allegation that security case logs were changed to eliminate references to student
intoxication or alcohol consumption had some merit. The complainant told us the
center’s case log entries were handwritten by security staff and included specific
references to student intoxication and alcohol consumption. The complainant said that
the handwritten case logs were recreated with a typewriter and references to student
intoxication and alcohol consumption were replaced with a vague description of
“negative behavior.” The complainant provided us with examples of handwritten case
logs, completed after January 1, 2010, with specific references to student intoxication
and alcohol consumption.

The reliability of security log information is important because the logs are reviewed by
Job Corps regional offices and by the OIG to assess center operations. We requested
from center management the security case logs for January 2010 through May 2010.
The security case logs provided by the center were computer-typed. We judgmentally
selected 12 of 159 security case log entries 5 with references to student intoxication and
alcohol consumption from the handwritten logs provided by the complainant and traced
them to the computer-typed logs provided by center management. All 12 entries
described the student misconduct as “negative behavior” and did not reference student
intoxication or alcohol consumption. According to the complainant, staff was directed by
center management to notate student alcohol-related conduct as “negative behavior”
because it was a more positive description of the incident. Center management said the
handwritten logs were typed so they would be more legible, and later added into a
computer spreadsheet as part of the transition from a manual to an electronic database
system. We verified that the center took appropriate disciplinary action for alcohol use
for each of the students whose case log entries were changed.



Five Allegations Relating to Student Misconduct Were Not Substantiated

5
 The 159 case log entries tested were a sub-set of the 859 entries in the center’s security case log for December 1,
2009, to May 31, 2010.

                                                   Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                                         6                       Report No. 26-10-007-01-370 

                                      U. S. Department of Labor – Office of Inspector General 




We performed audit work to determine the merit of five other allegations relating to
Sierra Nevada not taking appropriate action for student or staff misconduct. We found
no evidence that Sierra Nevada engaged in the improper practices noted in allegations
3-7, summarized as follows:

Allegation 3. Security staff was improperly discouraged from investigating sexual
crimes on center and reporting them to the police.

In order to assess the allegation we interviewed center management and staff, reviewed
center policies related to potential sexual crimes and when the local police department
should be contacted; and tested student incidents for compliance. Based on our review,
the center appropriately assigned investigation of potential sexual crimes to staff with
specialized training and notified the police when appropriate.

Allegation 4. Security dispatch logs were altered and information relating to criminal
activity was omitted.

In order to assess the allegation we interviewed center management and staff as to the
proper use of center dispatch logs; and compared a judgmental sample of student
misconduct incidents reported on Incident Report forms maintained by the center to the
related dispatch logs to determine whether the noted information was omitted. Our
review did not identify altered security dispatch logs or omission of information relating
to criminal activity.

Allegation 5. The center did not take appropriate disciplinary action or properly report
incidents for student drug use, possession of weapons, intoxication, and hazing.

In order to assess the allegation, we interviewed Sierra Nevada management and staff;
reviewed Job Corps and center policies relating to student misconduct; and randomly
selected misconduct incidents and judgmentally selected misconduct incidents based
on information provided by the complainant to determine whether the noted types of
incidents were properly investigated and categorized, and the disciplinary actions were
appropriate and timely. Our review indicated the center took appropriate action and
reported the noted types of student misconduct as required in Job Corps’ CIS database
and significant incident reporting system.

Allegation 6. The center downplayed and did not report student riots.

In order to assess the allegation, we interviewed security staff present at the incidents in
question and reviewed student disciplinary files. We concluded that the characterization
and reporting of a fight involving multiple students as individual student misconduct
issues rather than a student riot was a judgment call made by center management.

Allegation 7. Incident reports detailing student misconduct were improperly deleted
from security staff computers.

                                        Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                              7                       Report No. 26-10-007-01-370 

                                                 U. S. Department of Labor – Office of Inspector General 




In order to assess the allegation, we interviewed Sierra Nevada Information Technology
staff to identify the computers and information systems from which the incident reports
identified by the complainant were deleted. We also determined whether the incident
reports were deleted from Job Corps’s official system of record – the CIS database; the
incident reports were maintained in the center security case files; and whether the
center took appropriate disciplinary action. We concluded the incident reports were
maintained in the center security case files and the center took appropriate disciplinary
action. The incidents were deleted from security staff’s computer hard drive and not
from Job Corps’ CIS database because the center employee failed to access his
computer account after a 60-day period. The Job Corps data center in Austin, Texas,
deletes computer accounts due to user inactivity. As such, the incident reports were not
improperly deleted.

Our methodology for validating the merit of allegations 3-7 is detailed in Appendix B.

Significant Incidents were Underreported

In addition to determining the merit of the complaint allegations, we tested Sierra
Nevada’s overall controls to ensure compliance with Job Corps requirements for
addressing student misconduct. We determined that the center did not always report
student misconduct and other incidents to Job Corps as required. We reviewed Sierra
Nevada’s actions in response to a statistical and judgmental sample of 137 student
misconduct incidents that occurred during December 2009 through May 2010 to
determine whether the center took appropriate disciplinary action and reported
significant incidents to Job Corps as required. Fifty of the 137 incidents tested were
statistically (randomly) selected from the 115 Level I and II incidents noted in Job Corps’
CIS database for the 6-month period and 87 were judgmentally selected from 859 of the
center’s security case log incident entries for the same period.

We found that for each incident tested, Sierra Nevada properly investigated student
misconduct, held required Fact Finding Boards to determine innocence or guilt, and
took appropriate disciplinary action. However, the center did not include 12 incidents in
its significant incident reporting to Job Corps as required. 6 We expanded our review to
include all significant incidents noted in the CIS database and determined that in total
28 (46percent) of the 61 significant incidents that occurred at the center during
December 2009 through May 2010 were not reported to Job Corps. The unreported
significant incidents were primarily physical assault, theft, or indication that a student
was a danger to himself or others. None of the unreported significant incident types
were noted in the complaint allegations as being improperly reported (e.g., drug use,
hazing, student riots).


6
 Job Corps’ PRH (Section 5.5, Management Reporting of Significant Incidents) identifies 11 reportable significant
incidents (e.g., theft, physical assault, potential for media attention) that must be reported through Job Corps’
Significant Incident Reporting system within 24 hours of the center being made aware of the incident.

                                                   Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                                         8                       Report No. 26-10-007-01-370 

                                              U. S. Department of Labor – Office of Inspector General 



Not reporting significant incidents may impact Job Corps assessments of center
operations and its ability to respond to possible negative media attention. Sierra
Nevada’s policies and procedures for significant incident reporting were adequate;
however, center management did not provide adequate oversight to ensure compliance
with Job Corps’ reporting requirements.

Objective 2 – Is there evidence that hours reported by center personnel did not
               represent actual hours worked?

Finding 2 – We could not conclude on the merit of the complaint allegation that a
            security supervisor compensated staff for hours not worked nor the
            accuracy of reported work hours for exempt employees paid a salary
            because supporting documentation was missing, incomplete, or not
            required.

We could not conclude on the merit of the hotline complaint allegation that a security
supervisor altered staff activity reports and timecards to support compensation for hours
not worked because of missing or incomplete documentation. Specifically, security staff
activity reports for 136 (73 percent) of 186 individual work schedules over 23 pay
periods tested between December 2009 through May 2010 were missing, and 139 (76
percent) of 182 entries in the security dispatch logs reviewed over four pay periods did
not document when security staff departed from duty as required.

We judgmentally selected 10 of 17 non-exempt 7 security staff who worked the prime
(evening) or graveyard shift, or who were identified specifically by the complainant and
reviewed the activity reports and dispatch log entries to determine if the actual hours
worked by non-exempt security staff equaled the hours scheduled for and paid to work.

Although neither Job Corps nor Sierra Nevada had a written policy requiring daily
activity reports and dispatch logs, the center security manager required the
documentation to ensure security staff was actively engaged with center personnel
while on duty and to ensure a visible security staff presence in the dormitories. Security
staff was required to make hourly entries in their activity reports and the security office
dispatcher was required to record staff start and departure times in the dispatch logs.
The center could not provide that assurance due to the missing or incomplete
documentation. The center security manager said he notified staff when he determined
that activity reports were not completed. However, our testing showed that the
deficiencies were not corrected. We reviewed the timecards for non-exempt security
staff working for the supervisor during the same period and found no evidence of
inappropriate alterations.


7
 The FLSA establishes standards for minimum wages, overtime pay, recordkeeping, and child labor. A non-exempt
employee is covered by the overtime pay and minimum wage provisions of the FLSA . The FLSA exempts some
employees from its overtime pay and minimum wage provisions; exempt employees are paid a salary or a
guaranteed minimum amount of money.

                                                Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                                      9                       Report No. 26-10-007-01-370 

                                           U. S. Department of Labor – Office of Inspector General 



Additionally, we could not conclude on whether the work hours reported for Sierra
Nevada’s exempt employees represented actual hours worked because the center did
not require documentation of the hours worked or supervisory approval. While center
operators are not required to complete timesheets for exempt employees, Job Corps’
PRH does require center operators to establish the necessary internal controls to
ensure the integrity of government funds and properly safeguard assets. 8

Moreover, the Government Accountability Office’s (GAO) Standards for Internal Control
in the Federal Government states all transactions and other significant events need to
be clearly documented, and documentation readily available. 9 The center did require
documentation and supervisory approval of work time missed by the non-exempt
employees. Timesheets listing hours worked with supervisory approval were required
for non-exempt employees (i.e., those paid on an hourly basis). We selected a
judgmental sample of 10 of 17 non-exempt security staff and 30 of 53 non-exempt
residential advisors and verified that there were no discrepancies between these
employees’ work schedules, timesheets, and payroll records.

The deficient controls over work hours reported for non-exempt security staff and
exempt employees occurred because center management had not established
procedures defining adequate documentation requirements and oversight to ensure
their reported work hours represented the actual hours worked.

Recommendations

We recommend that the Assistant Secretary for Employment and Training direct Job
Corps to:

    1. Require Sierra Nevada to establish procedures that verify the center’s
       compliance with Job Corps’ requirements for reporting significant incidents within
       24 hours of the center being made aware of the incident.

    2. Require Sierra Nevada to establish procedures that verify the center’s
       compliance with its own requirements for Activity Reports and for the Dispatch
       Log.

    3. Require Sierra Nevada to establish procedures that provide adequate assurance
       that center work hours reported for exempt (i.e., salaried) employees represent
       actual hours worked.




8
Job Corps' PRH chapter 5.7 R4(a)2-3. 

9
GAO, GAO/AIMD-00-21.3.1 (Washington, D.C.: November 1999), 12-15. 


                                             Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                                   10                      Report No. 26-10-007-01-370 

                                        U. S. Department of Labor – Office of Inspector General 



We appreciate the cooperation and courtesies that Job Corps, MTC and Sierra Nevada
personnel extended to the Office of Inspector General during the audit. OIG personnel
who made major contributions to this report are listed in Appendix F.




Elliot P. Lewis
Assistant Inspector General for Audit




                                         Hotline Complaint Audit of Sierra Nevada Job Corps Center
                                               11                      Report No. 26-10-007-01-370
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





          Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                12                      Report No. 26-10-007-01-370 

               U. S. Department of Labor – Office of Inspector General 





Appendices 





                Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                      13                      Report No. 26-10-007-01-370 

         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





          Hotline Complaint Audit of Sierra Nevada Job Corps Center
                14                      Report No. 26-10-007-01-370
                                     U. S. Department of Labor – Office of Inspector General 



                                                                                 Appendix A
Background

Job Corps is a national program, administered by ETA for the U.S. Department of Labor
(DOL). Job Corps is an office within the ETA. Job Corps offers a comprehensive array
of career development services to at-promise young women and men, ages 16 through
24, to prepare them for successful careers. Job Corps was established by the Economic
Opportunity Act of 1964 and is currently authorized under Title I-C of the Workforce
Investment Act of 1998.

Job Corps operates under the leadership of the National Director, supported by a
National Office staff and a field network of regional offices. Education, training, and
support services are provided to students at 123 Job Corps center campuses located
throughout the United States and Puerto Rico. Job Corps centers are operated for DOL
by private companies through competitive contracting processes, and by other federal
agencies through interagency agreements.

The MTC is the contracted operator of Sierra Nevada and is headquartered in
Centerville, Utah. MTC is under contract with Job Corps to operate 24 Job Corps
centers (prime contractor for 21 centers and subcontractor at 3 centers). Sierra Nevada
has 545 residential and 25 non-residential students enrolled, and the center has a fully
accredited high school through the Northwest Association of Schools and Colleges.




                                      Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                            15                      Report No. 26-10-007-01-370 

         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





          Hotline Complaint Audit of Sierra Nevada Job Corps Center
                16                      Report No. 26-10-007-01-370
                                      U. S. Department of Labor – Office of Inspector General 



                                                                                  Appendix B
Objectives, Scope, Methodology, and Criteria

Objective

Our objective was to determine if the allegations had merit. We answered the following
two questions:

1) Is there evidence that the center did not take appropriate actions for student or staff
   misconduct?

2) Is there evidence that hours reported by center personnel did not represent actual
   hours worked?

Scope

The OIG conducted a performance audit in response to a hotline complaint concerning
improprieties at the Sierra Nevada Job Corps Center in Reno, Nevada. This report
reflects the audit work conducted to determine the merit of hotline complaint allegations
against the Sierra Nevada Job Corps Center. We conducted our fieldwork at the Sierra
Nevada center from June 7-25, 2010. The complaint alleged that Sierra Nevada did not
take appropriate action for student and staff misconduct and paid staff for hours not
worked. We limited our audit coverage to those areas addressed in the complaint and
the management controls over these areas. We restricted our testing to audit
procedures necessary to fulfill the audit’s objectives. We reviewed the most recent 6
months of data, December 1, 2009, through May 31, 2010.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

Methodology

We conducted work to determine the merit of eight specific complaint allegations.
To accomplish our objective, we interviewed the complainant, Sierra Nevada
management and staff, and Job Corps officials; reviewed the Job Corps PRH and
MTC/Sierra Nevada operating procedures governing student misconduct and payroll;
assessed Sierra Nevada’s controls for ensuring compliance; and reviewed student
disciplinary and center security files. Our audit covered Sierra Nevada activities that
occurred during December 1, 2009, through May 31, 2010.




                                       Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                             17                      Report No. 26-10-007-01-370 

                                                 U. S. Department of Labor – Office of Inspector General 



Student Misconduct

To gain an understanding of the center’s processes for student or staff misconduct, we
interviewed center officials and staff, reviewed applicable policies and procedures, and
performed process walkthroughs for center disciplinary action. To determine if
appropriate action was taken for student misconduct we used non-statistical sampling to
review 99 events of student misconduct reported by the center between December 1,
2009, and May 31, 2010. We selected non-statistical (judgmental) sampling because
the complainant identified specific instances of misconduct that we sought to validate or
invalidate. Specifically, we:

     •		 Reviewed all 859 incident entries made in the center’s security case log for
         December 1, 2009, to May 31, 2010, and judgmentally selected 87 events
         identified by the complainant or selected by OIG based on review of incident
         classifications in the case log to determine whether the center addressed the
         event timely, appropriately, and in accordance with the PRH, and if applicable,
         the event was recorded in Job Corps’ significant incident reporting (SIR) system
         and recorded in accordance with PRH timeframes.

     •		    Judgmentally selected 12 of 159 center security case log entries 10 that were
           classified as “negative behavior” to determine if the complainant’s allegation that
           student misconduct events involving alcohol were altered. The 12 events
           selected involved 16 students for the months of January, February and May
           2010. May was selected because it was the most current month and contained
           large numbers of negative behavior entries. January and February were selected
           because the hotline complaint was made in March and we wanted to select
           months that were close to the time of the allegation. We compared the computer-
           typed case logs provided by center management to the handwritten case logs
           provided by the complainant to review if the event involved alcohol, if the event
           description was changed, and if the center addressed the event timely,
           appropriately and in accordance with the PRH.

We also obtained a CIS report of all 115 Level I and II student misconduct incidents for
December 1, 2009, to May 31, 2010. We reviewed a statistical sample of 50 of 115
incidents to determine whether the center convened Fact Finding Boards and separated
students in accordance with PRH timeframes. We conducted statistical (random)
sampling because we sought to project any exceptions identified to reach a conclusion
about the testing universe (population). We expanded our review to include all
significant incidents noted in the CIS database and we determined that 61 significant
incidents occurred at the center during December 2009 through May 2010. In addition,
we reviewed all 115 Level I and II incidents to determine, if applicable, the incident was
reported as required in Job Corps’ SIR system.


10
 The 159 case log entries tested were a sub-set of the 859 entries in the center’s security case log for December 1,
2009, to May 31, 2010.

                                                   Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                                         18		
                                                           			                   Report No. 26-10-007-01-370 

                                      U. S. Department of Labor – Office of Inspector General 



For the allegation regarding an inappropriate relationship between a center student and
employee we interviewed the Human Resource Director, Security Manager, and a
residential advisor. We further reviewed the student’s disciplinary file and the
employee’s personnel file.

We performed audit work to determine the merit of five additional allegations relating to
student or staff misconduct, summarized as follows:

   •		 Security staff was improperly discouraged from investigating sexual crimes on
       center and reporting them to the police. We reviewed center policies related to
       sexual crimes and when the local police department should be contacted. The
       same process for sexual assault response was described in separate interviews
       with the Center Duty Officer, Security Manager, and the Wellness Director.
       Furthermore, we selected a judgmental sample of 87 of 859 incidents from center
       security case logs, including those identified by the complainant as worthy of a
       review by OIG and incidents characterized as “confidential” which the center
       used to notate sexual assaults and suicide issues.

   •		 Security dispatch logs were altered and information relating to criminal activity
       was omitted. We interviewed center management and staff as to the proper use
       of center dispatch logs; reviewed the dispatch logs, the security case logs and a
       judgmental sample of student misconduct reported on the Incident Report form.
       We selected a judgmental sample based on potential criminal activity (20
       incidents involving larceny, breaking and entering or arrest; and18 incidents
       involving drug use or possession).The dispatch logs and security case logs were
       brief, short descriptions of events that occurred on center, and the Incident
       Report form was used by center personnel to provide longer, narrative
       explanations of events.

   •		 The center did not take appropriate disciplinary action or properly report incidents
       for student drug use, possession of weapons, intoxication, and hazing. We
       selected a judgmental sample of 87 of 859 incidents from the security case logs,
       including those identified by the complainant as worthy of a review by OIG, and
       also selected a random sample of 50 of 115 Level I and II student incidents. For
       each incident we reviewed the initial Incident Report and the student disciplinary
       file. We then evaluated if the incident was appropriately categorized using Job
       Corps’ standards, the disciplinary actions were in alignment with Job Corps or
       the center’s procedures, and that disciplinary actions were timely performed.

   •		 The center downplayed and did not report student riots. We based our
       conclusion on an interview with security staff present at the incident in question
       and a review of 137 student disciplinary files (50 of 115 Level I and II student
       incidents and 87 of 859 incidents from the security case logs).

   •		 Incident reports detailing student misconduct were improperly deleted from
       security staff computers. We interviewed the center’s Information Technology
                                       Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                             19		
                                               			                   Report No. 26-10-007-01-370 

                                              U. S. Department of Labor – Office of Inspector General 



        System Administrator to identify the computers and information systems from
        which the incident reports identified by the complainant were deleted and to
        determine whether the incident reports were deleted from Job Corps’ official
        system of record – the CIS database. We traced all 15 negative incident reports
        alleged to be destroyed to determine if the events were recorded in the center
        case log, the incident reports were maintained in the center security case files,
        and whether the center took appropriate disciplinary action.

Timekeeping & Payroll

To gain an understanding of the center’s processes for payroll, we interviewed center
officials and staff, and reviewed applicable policies and procedures. To evaluate
management controls over payroll, including both exempt 11 and non-exempt
employees, we performed process walkthroughs. To determine if work hours reported
by center personnel represented actual hours worked we tested the timekeeping
process for two groups of non-exempt employees as follows:

     •		 To determine if hotline complainant’s allegations that a security supervisor
         altered staff activity reports and timecards to support compensation for hours not
         worked, we judgmentally selected 10 of 17 security staff who worked the prime
         (evening) or graveyard shift or who were identified specifically by the complainant
         to review if the actual hours worked by staff equaled the hours scheduled for and
         paid to work; we also reconciled the timecard hours to the payroll register. We
         selected for review the available documentation from 23 pay periods for 186
         individual work schedules where daily activity reports were required by center
         security management for security staff and 182 required security dispatch log
         entries from four pay periods. We also selected and reviewed 186 timesheets
         submitted by the 10 security staff from 23 pay periods.. The pay periods were
         judgmentally selected and fell within our audit scope from December 1, 2009,
         through May 31, 2010. We selected 23 pay periods because it covered a large
         time span of five months, and we selected only 4 pay periods for the dispatch log
         testing because of the large of numbers of entries to review.

     •		 To determine if other non-exempt employees worked the hours they were
         scheduled to work and paid for, we selected a judgmental sample of 30 out of 53
         Residential Advisors (RAs) paid on an hourly basis to review if the actual hours
         worked by RAs equaled the hours RAs were scheduled for and paid to work; we
         also reconciled the timecard hours to the payroll register. We selected RAs from
         among other employees because documentation independent of time cards, a
         radio sign-out/sign-in log, was available to verify the RAs presence on center
         during scheduled work hours.

11
  The FLSA establishes standards for minimum wages, overtime pay, recordkeeping, and child labor. A non-exempt
employee is covered by the overtime pay and minimum wage provisions of the FLSA. The FLSA exempts some
employees from its overtime pay and minimum wage provisions; exempt employees are paid a salary or a
guaranteed minimum amount of money .

                                                Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                                      20		
                                                        			                   Report No. 26-10-007-01-370 

                                      U. S. Department of Labor – Office of Inspector General 




Criteria

We used the following criteria to perform this audit:

• Job Corps’ Policy and Requirements Handbook
• Sierra Nevada Standard Operating Procedures
• Management and Training Corporation’s Standard Operating Procedures
• Sierra Nevada Job Corps contract
• Economic Opportunity Act of 1964
• Workforce Investment Act of 1998
• GAO Government Auditing Standards
• GAO Standards for Internal Control in the Federal Government
• Fair Labor Standards Act




                                        Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                              21                      Report No. 26-10-007-01-370 

         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





          Hotline Complaint Audit of Sierra Nevada Job Corps Center
                22                      Report No. 26-10-007-01-370
                                      U. S. Department of Labor – Office of Inspector General 



                                                                                  Appendix C
Acronyms and Abbreviations


CIS             Center Information System

DOL             Department of Labor

ETA             Employment and Training Administration

FLSA            Fair Labor Standards Act

GAO             Government Accountability Office

Job Corps       Office of Job Corps

MTC             Management and Training Corporation

OIG             Office of Inspector General

PRH Job             Corps’ Policy and Requirements Handbook

RA              Residential Advisor

SIR             Significant Incident Report

Sierra Nevada   Sierra Nevada Job Corps Center, Reno, Nevada




                                       Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                             23                      Report No. 26-10-007-01-370 

         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





          Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                24                      Report No. 26-10-007-01-370 

                                 U. S. Department of Labor – Office of Inspector General


                                                                            Appendix D
ETA’s Response to Draft Report




                                  Hotline Complaint Audit of Sierra Nevada Job Corps Center
                                        25                      Report No. 26-10-007-01-370
U. S. Departm
      Department of Labor – Office of Inspector General
	
                                                General
	




         Complaint Audit of Sierra Nevada
 Hotline Complaint                 Nevada Job Corps Center
                                                       Center
       26                      Rep
                               Repoort No. 26
                                           26-10
                                              -10--007-01-370
                                 U. S. Department of Labor – Office of Inspector General 



                                                                             Appendix E
MTC’s Response to Draft Report




                                  Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                        27                      Report No. 26-10-007-01-370 

U. S. Department of Labor – Office of Inspector General 





 Hotline Complaint Audit of Sierra Nevada Job Corps Center 

       28                      Report No. 26-10-007-01-370 

U. S. Department of Labor – Office of Inspector General 





 Hotline Complaint Audit of Sierra Nevada Job Corps Center
       29                      Report No. 26-10-007-01-370
         U. S. Department of Labor – Office of Inspector General 





PAGE INTENTIONALLY LEFT BLANK 





          Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                30                      Report No. 26-10-007-01-370 

                                   U. S. Department of Labor – Office of Inspector General 



                                                                                Appendix F
Acknowledgements

Key contributors to this report were Ray Armada (Audit Director), Stephen Lawrence
(Acting Audit Manager), Norma Estrada (Auditor-in-Charge), Arijit Bandyopadhyay,
Dorothy Dorsey and, Steven Grubb.




                                     Hotline Complaint Audit of Sierra Nevada Job Corps Center 

                                           31                      Report No. 26-10-007-01-370 

TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

        Online: http://www.oig.dol.gov/        hotlineform.htm
        Email: hotline@         oig.dol.gov

        Telephone:					   1-800-347-3756 

                          202-693-6999 


        Fax: 	            202-693-7020

        Address: 	        Office of Inspector General
                          U.S. Department of Labor
                          200 Constitution Avenue, N.W.
        Room                     S-5506
                          Washington, D.C. 20210
